HERITAGE CREDIT CARD AGREEMENT
(Personal Accounts)
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

2.99%

APR for Balance
Transfers

2.99% Intro fixed APR for your first eight billing cycles following the opening of your account for
balance transfers made within thirty days of account opening.

Intro fixed APR for your first eight billing cycles following the opening of your account.

After that, the APR will be
Prime Rate.

16.24%. This APR will vary with the market based on the U.S.

After that, the APR will be 16.24%. This APR will vary with the market based on the U.S. Prime
Rate.
APR for Cash Advances

18.00% Fixed

Penalty APR and When
it Applies

18.00% Fixed
This APR may be applied to your account if you make a late payment.
How Long Will the Penalty APR Apply?: This Penalty APR will apply until you make six
consecutive Minimum Payments when due.
Your due date is at least 25 days after the close of each billing cycle. We will not charge you
interest on Purchases if you pay your entire New Balance by the Payment Due Date each month.
We will begin charging interest on Cash Advances on the transaction date.

Paying Interest

Minimum Interest
Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website
of the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees
• Foreign Transaction

3% of the U.S. dollar amount of any Purchase or Cash Advance made in a foreign currency

• Balance Transfer

Either $5 or 5% of the amount of each Balance Transfer, whichever is greater

• Cash Advance

Either $10or 5% of the amount of each Cash Advance, whichever is greater

Penalty Fees
• Late Payment

Up to $40

• Returned Payment

Up to $40

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new Purchases).”
See the paragraph of this Agreement titled “Computing Your Interest Charge” for more details.
Loss of Introductory APR: We may end your introductory APR and apply the Penalty APR if you make a late payment.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in this
Agreement.

SEE NEXT PAGE FOR IMPORTANT INFORMATION ABOUT YOUR ACCOUNT.

Heritage 2.99

Page 1 of 5

Rev. Date 06/01/20

3. Agreement to Pay. When you use your Card or Credit Card account,
This Agreement will cover any regular Mastercard, Gold Mastercard,
or when you permit anyone to use it, you agree to pay the amount of any
regular Visa, or Gold Visa account (individually or collectively called
and all Purchases or Cash Advances (including Purchases and/or Cash
“Credit Card account”) you have with us. By requesting or accepting a
Advances which may have been made in violation of this Agreement),
Credit Card account, you agree to be bound by all the terms of this
FINANCE CHARGES (including but not limited to interest, Foreign
Agreement. In this Agreement, the words “you” or “your” mean everyone
Transaction Fees, Cash Advance, Balance Transfer and Convenience
who has requested or accepted a Credit Card account with us. The words
Check Transaction Fees), late charges, membership fees, over-limit fees,
“we,” “us,” “our,” or “Bank” mean First Hawaiian Bank.
and other fees that may become due as shown on the periodic statement. If
1. Use. Your regular Mastercard, Gold Mastercard, Visa, or Gold Visa
we accept a payment from you in excess of your outstanding balance, your
card (individually or collectively called “Card”) may be used as a credit card
available Credit Limit will not be increased by the amount of the
for purchases of goods or services from participating merchants
overpayment nor will we be required to authorize transactions for an
(“Purchases”) or to get Cash Advances from us or any other financial
amount in excess of your Credit Limit.
institution displaying the “Mastercard” or “Visa” logo, or to purchase certain
4. Periodic Statement. Each month we will send you a periodic
items such as traveler's cheques, foreign currency, money orders, wire
statement for each Credit Card account you have with us covering the
transfers, lottery tickets, or (except as noted below) funds to be used for
previous billing period. We may not send you a statement if your balance is
wagers or gambling (all of which are collectively referred to as “Cash
zero and there were no transactions during the billing period. The statement
Advances”) up to your Credit Limit.
will have a “Statement Closing Date” and a “Payment Due Date,” and will
You can also obtain a Cash Advance by writing a special check
show, among other things, your “Previous Balance,” your “New Balance,”
(“Convenience Check”), which accesses the available Cash Advance limit
and your minimum monthly payment, which will be shown as the “Minimum
on your Credit Card account. Convenience Checks are available from us
Payment Due.” The periodic statement is part of this Agreement. If you
upon request, or we may periodically provide Convenience Checks as a
choose to receive periodic statements electronically, the statements will be
special promotion. If you use a Convenience Check available upon request,
deemed to have been sent to you when they are first made available for
all of the terms of this Agreement applicable to Cash Advances will apply to
you to view online.
the Convenience Check. If we offer a special promotion, we will explain to
5. Payment. You must make a payment by the “Payment Due Date.” You
you any special terms of the use of the Convenience Checks. The Cash
have two choices: You may pay the entire “New Balance” or you may pay in
Advance from a Convenience Check will be posted to your Credit Card
installments by paying at least the “Minimum Payment Due.” All payments
account when the Convenience Check reaches us. The Convenience
must be made in the lawful money of the United States of America. When
Check fee described on page 1 of this Agreement will be imposed on each
your payment is properly received, we will apply your Minimum Payment as
Convenience Check you write. If you stop payment on a Convenience
permitted by law. If you make a payment in excess of the Minimum
Check, your Credit Card account will be charged the fee shown in the
Payment, the excess amount will be applied first to your balance with the
paragraph of this Agreement called “Other Fees."
highest ANNUAL PERCENTAGE RATE. Any remaining amount of your
From time to time we may offer a special balance transfer promotion,
excess payment will be applied to the balance with the next highest
which is an opportunity to make a Cash Advance to pay the balance on
ANNUAL PERCENTAGE RATE, and so on. Upon confirmation of
another loan you have, by transferring the other loan balance to your Credit
collection, we will add any Cash Advances or Purchases repaid to your
Card account. If we offer a balance transfer promotion, at that time we will
available Credit Limit; however, in the event of payment by personal or
explain to you the terms of the promotion. Unless we tell you otherwise, all
business check, we may delay replenishing your available Credit Limit until
the references in this Agreement to balance transfers will apply to any
your check clears. This means that you may not have access to all or part
special balance transfer promotion offered.
of the Credit Limit until we have collected the funds by which you have
Your Card may also be used in certain automated terminals to gain
made payment on the account. If payments are made by certified or
access to your checking, savings, and Credit Card accounts.
cashier’s check, electronic funds transfer, automated clearing house, or
Your Card and Credit Card account may be used only for valid and
other means that provide immediate collected funds, we may waive the
lawful purposes. You may not use your Card (i) to make Purchases or
right to delay restoration of the Credit Limit.
obtain Cash Advances for any illegal transaction, or (ii) for any internet or
Payments must be mailed to the BankCard Center address specified in
online gambling transactions. Transactions for online or internet gambling
your statement. Payments must reach our BankCard Center by 5:00 p.m.
will not be approved. If you use your Card for any illegal or prohibited
HST during our regular business days in order to be credited on that date.
transaction, this Agreement also applies to such transaction and you agree
Payments received after the cutoff time of 5:00 p.m. HST will be credited as
to pay any and all amounts related to such transaction pursuant to the
of the following business day. If you make a payment in person at our
terms of this Agreement. We may, in our sole discretion, restrict the use of
branches with the assistance of a branch employee prior to regular closing
or terminate your Card if we notice excessive use of your Card or other
time for the branch, the payment will be credited as of the date received. If
suspicious activities or if we reasonably believe the Card is or has been
you make a payment by any means other than by mail to our BankCard
used for one or more illegal or prohibited transactions.
Center (including payments made by using FHB Online), crediting of your
We have no responsibility for the failure of any machine, merchant,
payment may be delayed.
financial institution, or any other party to honor your Card. If you use, or
From time to time, we may let you skip or reduce one or more monthly
allow someone else to use the Card or Credit Card account for any other
payments during a year and/or we may temporarily reduce or eliminate
purpose, you will be responsible for such use and may be required to
certain FINANCE CHARGES on all or a portion of your Credit Card account
reimburse us for all amounts or expenses we pay as a result of such use.
balance or offer you other special terms. If we do, we will advise you of the
1. Credit Limit. We will notify you of your Credit Limit for each Credit
scope and duration of the applicable skip or promotional feature. When the
Card account you have with us, which is the total amount of credit we agree
skip or promotional feature ends, your regular rates and all the terms of the
to extend to you at any one time. Your Credit Limit will also include a
Agreement will resume.
separate limit for Cash Advances. Your Credit Limit and Cash Advance
6. Minimum Payment–Late Charge. At least the amount of the
limit are listed on your monthly periodic statement. Your available Credit
“Minimum Payment Due” must be received by us by the “Payment Due
Limit is the amount of your total Credit Limit minus the sum of your New
Date.” If it is not, we may apply the late charge shown on page 1 (if
Balance, any authorized Purchases, Cash Advances and Balance
permitted by law), unless such charge would result in an interest charge
Transfers that have not posted to your Account, and any payments that
greater than the maximum allowable by law, in which case we will only
have not cleared. You may apply to increase your Credit Limit, and we
charge the maximum allowable rate. The “Minimum Payment Due” will
reserve the right to lower it without prior notice to you.
include the amount calculated by using the table shown below, and will also
You agree that you will not let your total charges, including Purchases,
include any amount past due on your account. Your statement will include
Cash Advances, FINANCE CHARGES (including but not limited to interest,
the past due amounts as part of the “Minimum Payment Due.”
Foreign Transaction Fees, Cash Advance, Balance Transfer and
Convenience Check Transaction Fees), late charges, membership fees,
“New Balance”
“Minimum Payment Due”
and other fees that may be due exceed your Credit Limit. If you exceed
$ 0.01 – $24.99
Entire “New Balance”
your Credit Limit, you will be considered to have exceeded your Credit Limit
$25.00 or more
$25 or 3% of “New Balance”,
for all purposes of the Agreement, and we may reduce the available Credit
whichever is greater
Limit of any other Credit Card account you have with us until such time as
7.
When
You
Must
Pay
to
Avoid
Interest
Charges. There may be
the excess amount is paid.
different treatments of interest charges for Purchases and Cash Advances,
You are responsible for keeping track of your New Balance and your
even though they are computed the same way. You may avoid paying an
available Credit Limit/Revolve Line. We may but are not required to
interest charge on Purchases if you pay the entire New Balance early
approve transactions above your Credit Limit/Revolve Line up to a certain
enough to reach us by the Payment Due Date. If we do not receive the
percentage of your Credit Limit/Revolve Line which we establish from time
entire New Balance by the Payment Due Date, the interest charge will be
to time for you based on our established evaluation criteria. If we do
charged on Purchases from the date of the transaction. Interest charges on
approve those transactions, those transactions will not increase your Credit
Cash Advances begin on the transaction date of each Cash Advance and
Limit/Revolve Line. You are responsible for repaying all over-limit amounts
will be assessed even if your entire New Balance is paid by the Payment
and FINANCE CHARGES will be assessed on those amounts.
Due Date.
For security reasons, we may limit the number or amount of Purchase,
8. Computing Your Interest Charge. We figure the interest charge on
Cash Advance and/or Convenience Check transactions that may be
your account by applying the periodic rate to the “Average Daily Balance” of
accomplished with your Card or Credit Card account. We may also limit
Purchases and “Average Daily Balance” of Cash Advances, including
authorizations to make Purchases or obtain Cash Advances if we consider
current transactions.
it necessary to verify collection of Payments received on your Credit Card
a. Average Daily Balance. To get the “Average Daily Balance of
account.
Purchases” we take the beginning balance of your Credit Card account
2. Temporary Reduction of Credit Limit. Merchants, such as car rental
each day, add any new Purchases, and subtract any unpaid interest or
companies and hotels, may request prior credit approval from us for an
other finance charges, Cash Advances, payments, other credits that
estimated amount of your Purchases, even if you ultimately do not pay by
were applied to Purchases, late charges, membership fees, over-limit
credit. If our approval is granted, your available Credit Limit will temporarily
fees, and other fees. If you paid the Purchases balance in full by the
be reduced by the amount authorized by us. If you do not ultimately use
Payment Due Date in the previous billing cycle, in the current billing
your Credit Card account to pay for your Purchases or if the actual amount
cycle we will credit payments otherwise applicable to Purchases based
of Purchases posted to your Credit Card account varies from the estimated
on our allocation method as of the first day of the current billing cycle.
amount approved by us, it is the responsibility of the merchant, not us, to
These computations give us the Purchases daily balance. To get the
cancel the prior credit approval based on the estimated amount. The failure
“Average Daily Balance of Cash Advances” we take the beginning
of the merchant to cancel a prior credit approval may result in a temporary
balance each day, add any new Cash Advances, and subtract any
reduction of your available Credit Limit, but will not increase the amount you
unpaid interest or other finance charges, Purchases, payments, other
owe us under this Agreement.
Heritage 2.99
Page 2 of 5
Rev. Date 06/01/20

credits that were applied to Cash Advances, late charges, membership
you obtained money or information in the case of an automated terminal
fees, over-limit fees, and other fees. This gives us the Cash Advances
transaction) for fees due to us. We reserve the right to waive these fees
daily balance. Then we add up all of the Purchases and Cash Advance
from time to time. If we incur special expenses on your Credit Card account
daily balances for the billing period and divide each total by the number
due to a request made by you, we may also charge you for these expenses.
of days in the billing period. This gives us the “Average Daily
Automated Teller Machine (ATM) Transaction Fees
Balances.”
(For cards with ATM deposit account access)
b. Figuring the Interest Charge. We compute the interest charge by
At a First
At a Network ATM
multiplying these Average Daily Balances by the applicable Daily
Hawaiian ATM
Periodic Rate, and then we multiply the result by the number of days in
•
Deposit
Account
Withdrawal
the billing period. To determine the Daily Periodic Rate, we divide the
 Domestic
N/C
$3.00
ANNUAL PERCENTAGE RATE in effect for the billing period by 365.
 International
N/A
$5.00
Your Credit Card account is made on a Variable Rate basis for
• Balance Inquiry
N/C
$1.00
Purchases, and the ANNUAL PERCENTAGE RATE and Daily Periodic
• Checking Account Statement
$1.50
N/A
Rate for Purchases are described in the paragraph of this Agreement
below called “Variable Rate.” The Daily Periodic Rate for Cash
Note: N/C = No Charge; N/A = Not Applicable; Domestic = at an ATM in
Advances is a Fixed Rate of .0493%, which is equivalent to an ANNUAL
Canada, U.S. and its protectorates and territories, including Guam and the
PERCENTAGE RATE of 18.00%.
Commonwealth of the Northern Mariana Islands (CNMI).
c. Variable Rate. The initial ANNUAL PERCENTAGE RATE for
Payable at Time of Request
Purchases and transfers of account balances you have with another
•
Mastercard
Temporary
Replacement Card or Gold Visa
creditor ("Balance Transfers") is a fixed promotional rate as shown on
Temporary Replacement Card issued by Mastercard
page 1 of this Agreement and will remain in effect for your first eight
International or Visa Travel Service Center. Temporary
billing cycles following the opening of your account ("Initial Rate
card is good for approximately one month and cannot be
Period"). The Daily Periodic Rate for Purchases and Balance Transfers
used in ATMs.
during the Initial Rate Period is .0082%. After the Initial Rate Period,
$95.00
 Domestic Fee:
the Daily Periodic Rate for Purchases and Balance Transfers based on
$125.00
 International Fee:
the Current Index and Rate Spread described below will be .0445% and
$50.00
• Emergency Cash Advance issued by Mastercard
the corresponding ANNUAL PERCENTAGE RATE will be 16.24%.
International or Visa Travel Service Center is limited to
After the Initial Rate Period, the ANNUAL PERCENTAGE RATE for
$1,000 or your available credit limit, whichever is less
Purchases and Balance Transfers will change to the current rate shown
$5.00
on page 1 of this Agreement. The current Daily Periodic Rate for
• Copy of Sales Draft
Purchases and Balance Transfers is .0445%. The Daily Periodic Rate
$20.00/hour
• Research Fee
and the corresponding ANNUAL PERCENTAGE RATE may change (by
$5.00
• Statement Copy Fee
increasing or decreasing) on the first day of each of your billing cycles
$16.00
• Convenience Check Stop Payment Order/Return
that begin in March, June, September, and December. Each date on
Convenience Check Fee
which the rate of interest could change is called a “Change Date.”
$10.00
• Listing in Combined Warning Bulletin Per Region
Changes will be based on changes in the “Index.” The Index is the
highest U.S. Prime Rate published in the “Money Rates” section of The
Payable at Time of Delivery
Wall Street Journal on the last business day of the calendar month prior
$20.00
• Replacement Card issued by First Hawaiian Bank
to the month in which the Change Date occurs. The most recent Index
•
Returned
Payment
Check
(due
to
insufficient
funds,
is called the “Current Index.” If the Index is no longer available, we will
Up to $35
stop payment order on your check, etc.)
choose a new Index based upon comparable information and will give
you notice of our choice. Your interest rate for Purchases is based on a
13. Authorizing Transactions. We reserve the right to decline a
variable rate equal to the sum of the Current Index plus a “Rate Spread”
transaction on your account for any reason, including but not limited to
of 12.99 percentage points. (The Rate Spread is also called the
operational considerations, your account being in default, or we suspect
Margin.) Immediately before each Change Date we will determine the
fraudulent or unlawful activity. We are not responsible for any losses
new interest rate for Purchases by adding the Rate Spread to the
incurred if a transaction on your account is declined for any reason, either
Current Index. For example, if the Current Index was 3.25% and the
by us or a third party, even if you have sufficient credit available.
Rate Spread 12.99 percentage points, the ANNUAL PERCENTAGE
14. Credit Insurance is Optional. If you choose to purchase credit
RATE would be 16.24% and by dividing this percentage figure by 365,
insurance, the premiums will be computed on the Average Daily Balance of
we would compute a Daily Periodic Rate of .0445%. The new interest
Purchases and Cash Advances, including finance and other charges, up to
rate for Purchases will become effective at the start of your first billing
$5,000. The cost for credit insurance is 65¢ per $100 of your average daily
cycle after the Change Date. The ANNUAL PERCENTAGE RATE will
balance of Purchases and Cash Advances. During months when you have
not exceed the maximum rate permitted by law. The effect of any
no balances, there is no charge. Credit insurance premiums will be added
increase in the ANNUAL PERCENTAGE RATE and the Daily Periodic
to your Credit Card account as Purchases.
Rate for Purchases would be to increase the amount of interest you
15. Default. We may declare the entire balance for all Credit Card
must pay and thus increase your monthly payments.
accounts due and payable at once with or without notice or demand if any
d. Introductory and Promotional Rates. At our discretion, we may
of these events (“Default”) happens:
offer you an introductory or promotional ANNUAL PERCENTAGE RATE
a. If you miss a payment under this Agreement or any other obligation
for your Credit Card account. For example, we may offer you an
you owe us; or
introductory ANNUAL PERCENTAGE RATE for Purchases when you
b. If you violate any terms of this Agreement.
open your Credit Card account, or a promotional ANNUAL
If you are in Default, we may terminate your Credit Card account, make
PERCENTAGE RATE for Balance Transfers. The time period for which
no more additional loans or advances, and require you to immediately
the introductory or promotional ANNUAL PERCENTAGE RATE applies
repay the entire unpaid balance of all amounts due on your Credit Card
may be limited. Any introductory or promotional ANNUAL
account, including but not limited to all loan amounts, late charges and
PERCENTAGE RATE offer will be subject to the terms of the offer and
other charges assessed but not paid, and all of the FINANCE CHARGES
this Agreement, including but not limited to the Penalty APR described
accrued but not paid. If we terminate your Credit Card account, your
in the paragraph of this Agreement called “Default”. We will provide you
obligation to repay the amounts you already owe us would continue.
with information on the offer, including the time period the introductory
At our option, we may also take action short of terminating your Credit
or promotional ANNUAL PERCENTAGE RATE is in effect in the
Card account. If your required Minimum Payment (shown on your periodic
documents that accompany your Credit Card or in the materials we
statement as “Minimum Payment Due”) is not received within 60 days of the
send you about the offer after you receive your Credit Card.
payment due date, we may increase your ANNUAL PERCENTAGE RATE
e. Military Lending Act Disclosures. Federal law provides important
for Purchases and Cash Advances and any applicable promotional rates to
protections to members of the Armed Forces and their dependents
a .0493% Daily Periodic Rate and an ANNUAL PERCENTAGE RATE
relating to extensions of consumer credit. In general, the cost of
(“Penalty APR”) of 18.00% fixed for the entire outstanding balance. We will
consumer credit to a member of the Armed Forces and his or her
send you advance written notice that your ANNUAL PERCENTAGE RATE
dependent may not exceed an annual percentage rate of 36 percent.
will be increasing. Your payments under this Agreement, including the
This rate must include, as applicable to the credit transaction or
amount of the FINANCE CHARGE, will increase as a result of the increase
account; the costs associated with credit insurance premiums; fees for
in your Daily Periodic Rate and ANNUAL PERCENTAGE RATE, and any
ancillary products sold in connection with the credit transaction; any
such increase in your Daily Periodic Rate and ANNUAL PERCENTAGE
application fee charged (other than certain application fees for specified
RATE will be shown on your periodic statement. We will reinstate your Daily
credit transactions or accounts); and any participation fee charged
Periodic Rate and ANNUAL PERCENTAGE RATE to the rate set forth in
(other than certain participation fees for a credit card account).
this Agreement once you have made six consecutive Minimum Payments
Additional oral disclosures are available at 1-877-640-2337.
on or before the due date, starting with the first billing cycle after the
9. Minimum Interest Charge. If the interest charge for all balances on
Penalty APR is imposed. If we take such lesser action initially, we reserve
the right to terminate your Credit Card account and accelerate all amounts
your Credit Card account is less than $1.00, we will charge you the
due under this Agreement regardless of whether any additional events have
Minimum Interest Charge shown on page 1. This charge is in lieu of any
occurred that would permit termination and acceleration.
interest charge.
16. Automated Terminal Services Involving Your Checking or Savings
10. Foreign Transaction Fee. If you make a Purchase or Cash Advance
in a foreign currency, it will be billed to you in U.S. dollars. You will be billed
Account. (Some of these services are only available if your Credit Card
the foreign transaction fee for these Purchases and Cash Advances made
account is linked to your checking or savings account with us.)
in foreign currency in the amount shown on page 1. This fee, which is a
a. Automated Terminals. You may use your Card in the following
FINANCE CHARGE, is not a foreign currency conversion charge and is not
automated terminals.
based on our exchange cost.
i. Our First Hawaiian automated teller machines (“First Hawaiian
11. Other Transaction Fees. We will charge your Credit Card account
ATM”).
when appropriate the Cash Advance and Convenience Check fees shown
ii. Any other automated teller machine (including any ATM we
on page 1, each of which are FINANCE CHARGES. Each of these fees will
may own besides First Hawaiian ATM) that is participating in a
be added to your Credit Card balance when charged.
network and accepts our Card (“Network ATM”) and
12. Other Fees. You also agree to pay us the appropriate fees listed below
iii. Any point-of-sale terminal that accepts our Card (“POS
terminal”).
and shown on page 1, which may be amended from time to time by us. You
authorize us to charge your Credit Card account (or the account from which
Heritage 2.99
Page 3 of 5
Rev. Date 06/01/20

We will tell you the results of our investigation within 10 business
b. Services Available at an Automated Terminal.
days after we hear from you and will correct any error promptly. If we
i. You may use your Card at a First Hawaiian ATM to:
need more time, however, we may take up to 45 days to investigate
•
Withdraw cash from your checking or savings account.
your complaint or question. If we decide to do this, we will re-credit your
•
Make deposits to your checking or savings account.
account within 10 business days for the amount you think is in error, so
•
Move funds between your checking and savings
that you will have the use of the money during the time it takes us to
accounts.
complete our investigation. If we ask you to put your complaint or
•
Get your checking, savings, or Credit Card account
question in writing and we do not receive it within 10 business days, we
balances. These balances may not include some
may not re-credit your account.
transactions recently made in your account.
We will tell you the results within three business days after
•
Move funds from your Credit Card account to your
completing
our investigation. If we determine that there was no error,
checking account.
we will send you a written explanation. You may ask for copies of
•
Get a Cash Advance from your Credit Card account.
documents that we used in our investigation.
•
Get an interim statement printout of all posted
i. Our Liability for Failure to Make Transfers. If we do not properly
transactions on your checking account since the last
complete a transfer to or from your account on time or in the correct
regular statement period up to the previous business
amount according to our agreement with you, we will be liable for your
day.
losses or damages. However, there are some exceptions. We will not
ii. You may use your Card at any Network ATM to: (Some of
be liable, for instance:
these services may not be available at all Network ATMs.)
i. If, through no fault of ours, you do not have enough money in
•
Withdraw cash from your checking or savings account.
your account to make the transfer;
•
Get a Cash Advance from your Credit Card account.
ii. If the transfer would go over the credit limit on your overdraft
•
Get your checking, savings, or Credit Card account
line;
balances. These balances may not include some
iii. If the automated terminal where you are making the transfer
transactions recently made in your account.
does not have enough cash;
iii. You may use your Card at a POS terminal to purchase certain
iv. If the automated terminal was not working properly and you
merchandise. The amount of your purchase will automatically
knew about the breakdown when you started the transfer;
be charged to your Credit Card account as a Purchase.
v. If circumstances beyond our control (such as fire or flood)
c. Limits of Automated Terminal Services.
prevent the transfer, despite reasonable precautions we have
i. Withdrawals and Cash Advances. You may withdraw cash or
taken; or
get a Cash Advance from a First Hawaiian ATM up to an
vi. If your account does not contain enough money because we
aggregate amount of $500 each calendar day, provided that
have placed a hold on some items or the account is subject to
this amount does not exceed your available account balance or
legal process.
Credit Limit. This amount may be less for cash withdrawals
vii. There may be other exceptions.
and Cash Advances from Network ATMs.
j. Disclosing Account Information to Third Parties. We may
You authorize us to charge any withdrawal by use of your
disclose information to third parties about your account or the transfers
Card to your checking account or savings account as though
you make:
you had specifically signed a withdrawal authorization. If there
i. Where it is necessary for completing transfers;
are insufficient funds in an account to cover such a withdrawal,
ii. In order to verify the existence and condition of your account for
you agree that we may treat the amount of such withdrawal
a third party, such as a credit bureau or merchant;
either as a Cash Advance or as an overdraft that you will be
iii. In order to comply with government agency or court orders; or
obligated to pay us on demand.
iv. If you give us your written permission.
ii. Deposits. You may deposit up to $50,000 per transaction using
17. ATM Safety. It is important to be aware of your surroundings when
a First Hawaiian ATM. All deposits made with your Card and
using an ATM, especially at night. When you are using an ATM, you should
placed in a First Hawaiian ATM are subject to receipt by us on
secure any cash you withdraw before leaving the ATM. If you need to use
opening the First Hawaiian ATM and verification of the items
an ATM at night, consider taking someone you know with you, and only use
and the amounts.
an ATM that is well-lit and unobstructed from view. If anything appears to
iii. Moving Funds. You may move up to $50,000 per transaction
be suspicious, do not use the ATM. Always call 911 in the event of an
between your checking account and savings account or from
emergency or to report any suspicious activity. If you have any questions or
your Credit Card account to your checking account using a
comments about the safety of any of our ATMs, please call us on Oahu at
First Hawaiian ATM.
(808) 844-4444 or 1-888-844-4444 from the neighbor islands, Guam, the
iv. .
CNMI or Continental U.S.
d. Fees for Using Automated Terminal Services. The fees for using
18. Lost or Stolen Card; Your Liability for Unauthorized Use. Tell us at
certain automated terminal services are disclosed in the paragraph of
once if you believe your Card has been lost or stolen. Telephoning is the
this Agreement called “Other Fees.”
best way of keeping your possible losses down.
e. Card and Secret Code Use. You are responsible for all transactions
a. Unauthorized Use as Credit Card. You may be liable for the
in which you use your Card in an automated terminal, or the use of the
unauthorized use of your Card as a credit card. You will not be liable for
Card by anyone else who uses it with your permission. Security in use
unauthorized use of your Card as a credit card that occurs after you
of the Card is provided by the secret code, which we will provide you,
notify us at the telephone number or address stated in the paragraph of
and the magnetically encoded stripe on the Card. Please keep the Card
this Agreement called “Where to Call or Write,” orally or in writing, of
safe and also protect the secret code. Use the Card and the secret
loss, theft, or possible unauthorized use. In any case, your liability for
code as instructed at all times. Please notify us of any mechanical or
unauthorized use of your Card as a credit card will not exceed $50.
operating failure in connection with the use of your Card. Do not permit
b. Unauthorized Use in Automated Terminals.
anyone else to use your Card and do not disclose your secret code or
i. If you tell us within two business days, you can lose no more
record it on the Card. The Card remains the property of the Bank and
than $50 if someone used your Card at an automated terminal
can be revoked and repossessed at any time. You must return it to us
without your permission.
when asked.
ii. If you do not tell us within two business days after you learn of
f. Time of Transaction. All transactions are subject to the time
the loss or theft of your Card and we can prove that if you had
necessary for us to process them. Any transaction made on a holiday or
told us, we could have stopped someone from using your Card
after regular banking hours may be held by us until the next business
at an automated terminal without your permission, you could
day. Any transaction involving an account or matter located at any other
lose as much as $500.
office of the Bank is subject to receipt at the other office and the time
iii. If you do not notify us at all, you could lose all the money in
necessary to process it.
your checking and savings accounts plus your maximum
g. Documentation of Transfers.
overdraft line of credit.
i. Terminal Transfers. You can get a receipt at the time you
iv. Also, if your statement shows transfers that you did not make,
make any transfer at a First Hawaiian ATM, Network ATM, or
tell us at once. If you do not tell us within 60 days after the
POS terminal.
statement was mailed to you, you may not get back any money
ii. Periodic Statements. If you have a checking account, you will
you lost after the 60 days if we can prove that we could have
get a monthly checking account statement. If you have
stopped someone from taking the money if you had told us in
arranged for electronic access to your savings account, you
time.
will get a quarterly savings account statement. However, if
v. If a good reason (such as a long trip or a hospital stay) kept you
there are any transfers in a particular month, you will get a
from telling us, we will extend the time periods.
savings statement that month, as well.
19. Where to Call or Write. If you believe your Card has been lost or
h. In Case of Errors or Questions About Your Electronic Transfers
stolen or that someone has transferred or may transfer money from your
Involving Your Checking or Savings Account. Call or write to us at
account or otherwise use your Card or Credit Card account without your
the telephone number and address stated in the paragraph of this
permission, call: (808) 847-4444 on Oahu; neighbor islands, Guam,
Agreement called “Where to Call or Write” as soon as you can if you
Commonwealth of the Northern Mariana Islands (CNMI), or Continental U.S
think your statement or receipt is wrong or if you need more information
call 1-800-342-2778 or write to: First Hawaiian Bank, BankCard Security
about a transfer listed on the statement or receipt. We must hear from
Department, P.O. Box 1959, Honolulu, Hawaii 96805.
you no later than 60 days after we sent you the first statement on which
20. Our Business Days. Our business days are Monday through Friday,
the problem or error appeared. When reporting an error or requesting
except for bank holidays.
more information:
21. Credit Investigation and Disclosure. You authorize us, both now and
i. Tell us your name and account number.
in the future, to check your credit and employment history and to release
ii. Describe the error or the transfer you are unsure about, and
information about our credit experience with you in response to legitimate
explain as clearly as you can why you believe it is an error or
credit inquiries. If you believe that we have incorrect information or have
why you need more information.
reported inaccurate information about you to a credit bureau, please call us
iii. Tell us the dollar amount of the suspected error.
at (808) 847-4444 (Oahu) or call toll-free at 1-800-342-2778.
If you tell us orally, we may require that you send us your complaint
22. Security Interest. We have no security for any amounts which become
or question in writing within 10 business days. We will determine
due under this Agreement unless you have given us a specific security
whether an error occurred within 10 business days after we hear from
you and will correct any error promptly.
Heritage 2.99
Page 4 of 5
Rev. Date 06/01/20

interest in connection with the Agreement, which is described on the
Security Agreement Supplement to this Agreement.
23. Collection. You promise to pay all collection costs, including, without
limitation, mailing and delivery charges, reasonable lawyers’ fees and court
costs at trial and on appeal, all as permitted by law.
24. If There are More Than One of You. Each of you individually, or all of
you together will be liable under this Agreement. We may collect from or
sue any one of you, or make any settlements or extensions with any one of
you, without giving up our rights against the other(s). You understand that
any one of you can make Purchases or get Cash Advances under this
Agreement which will be binding upon all of you
25. No Waiver of Rights. If we choose to waive any of the terms or
conditions of this Agreement on a case-by-case basis, such as by not
declaring the entire balance due when the minimum monthly payment has
not been made on time, it does not mean that we have waived, or given up,
our right to exercise any of our rights or remedies under this Agreement in
the future. We are not required to use any particular kind of demand or
notice in order to collect amounts due to us under this Agreement. No
indulgence or acceptance by us of delinquent or partial payments
constitutes a waiver of our rights or of any provision of this Agreement. No
waiver of any existing default shall be deemed to waive any subsequent
default.
26. Changing Terms. We can change, add to, delete or otherwise modify
the terms of this Agreement at any time in any way permitted by law. We
will send you advance notice of any change to this Agreement. If the
change affects use of your Card in an automated terminal, we will give you
advance notice of the change unless the change has to be made
immediately for security reasons. A notice of change we send you will
describe any right you have to opt out of a particular change, if any, and will
describe whether a particular change affects your outstanding balance. We

do not have to send notice of the change if it favors you, such as by
reducing rates, increasing the maximum Credit Limit, etc.
27. Canceling this Agreement. We have the right to cancel this
Agreement at any time by sending a notice to any one of you in writing. You
also have the same right to cancel this Agreement at any time by sending
us a notice in writing. If this Agreement is canceled by you or us, your
obligation to repay amounts you already owe under this Agreement would
continue, and you must return your Card to us.
28. Other Agreements. Use of your Card is subject to the terms of existing
regulations governing deposit accounts and other agreements and
disclosures for your checking, savings, and Credit Card accounts, and any
future changes.
29. Governing Law. This Agreement will be governed by the laws of the
State of Hawaii, and, as applicable, federal law, regardless of where the
Purchases or Cash Advances are made, and you agree that any legal
action that may be filed by you elsewhere will be transferred to an
appropriate court in Hawaii if we decide that we want it to be transferred.
30. Monitoring/Recording Telephone Calls. Our supervisory personnel
may listen to and record your telephone calls to us for the purpose of
monitoring and improving the quality of service you receive.
31. Emergency Situation. In the event of an emergency situation beyond
our reasonable control, such as an "act of God," war, fire, or natural
disaster, services involving your account could be available only in a
modified or reduced form or could be entirely unavailable. Unless expressly
prohibited by applicable law, you agree that we will have no liability to you
for such modification, reduction, or unavailability of services caused by an
emergency situation.

YOUR BILLING RIGHTS: Keep This Notice for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
•

What To Do If You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at:
First Hawaiian Bank
P.O. Box 1959
Honolulu, Hawaii 96805
In your letter, give us the following information:
•
Account information: Your name and account number.
•
Dollar amount: The dollar amount of the suspected error.
•
Description of problem: If you think there is an error on your bill,
describe what you believe is wrong and why you believe it is a
mistake.
You must contact us:
•
Within 60 days after the error appeared on your statement.
•
At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you think is
wrong.
You must notify us of any potential errors in writing. You may call us, but if
you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we
received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct the
error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
•
We cannot try to collect the amount in question, or report you as
delinquent on that amount.
•
The charge in question may remain on your statement, and we
may continue to charge you interest on that amount.
•
While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
•
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
•
If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.

Heritage 2.99

If we do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We
will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do
not pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first
$50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased
with your credit card and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount
due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within
100 miles of your current mailing address, and the purchase price
must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods
or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at:
First Hawaiian Bank
P.O. Box 1959
Honolulu, Hawaii 96805
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay,
we may report you as delinquent.

Page 5 of 5

Rev. Date 06/01/20

